No. 20–7605

IN THE

SUPREME COURT OF THE UNITED STATES

CODY JAMES MARTINEZ,
PETITIONER,
-vsSTATE OF ARIZONA,
RESPONDENT.
CERTIFICATE OF SERVICE
CAPITAL CASE
BRIEF IN OPPOSITION
MARK BRNOVICH
ATTORNEY GENERAL
BRUNN (“BEAU”) W. ROYSDEN III
SOLICITOR GENERAL
LACEY STOVER GARD
(COUNSEL OF RECORD)
DEPUTY SOLICITOR GENERAL/CHIEF OF
CAPITAL LITIGATION
KAITLIN HOLLYWOOD
ASSISTANT ATTORNEY GENERAL
CAPITAL LITIGATION SECTION
400 W. CONGRESS, BLDG. S-215
TUCSON, ARIZONA 85701
LACEY.GARD@AZAG.GOV
KAITLIN.HOLLYWOOD@AZAG.GOV
CLDOCKET@AZAG.GOV
TELEPHONE: (520) 628-6520
ATTORNEYS FOR RESPONDENT

CERTIFICATE OF SERVICE
Lacey Stover Gard certifies that she is a member in good standing of the
United States Supreme Court Bar. That on April 30, 2021, she caused to be
electronically filed and deposited in a FedEx envelope, shipping prepaid, Original
and 10 copies of the Brief in Opposition in Cody James Martinez vs. State of

Arizona, to:
THE HONORABLE SCOTT S. HARRIS
United States Supreme Court
Office of the Clerk
1 First Street, N.E.
Washington, D.C. 20543
and caused to be emailed and deposited in a United States Post Office, first-class
postage prepaid, 1 additional copy, addressed to:
S. Jonathan Young
Law Offices of Williamson & Young, P.C.
P.O. Box 42245
Tucson, Arizona 85733-2245
jon@williamsonandyoung.gov
Erin M. Carrillo
The Carrillo Law Firm, PLLC
23 N. Stewart Avenue
Tucson, Arizona 85716
erin@thecarrillolawfirm.com
All parties required to be served have been served.
s/ Lacey Stover Gard
Lacey Stover Gard

